9-o- /o?7
Supreme Court, U.S.
FILED

50" £03 V

No.

SEP 1 5 2020
OFFICE OF THE.CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

1^4.

(2.

l (j
— PETITIONER

(Your Name)
p 1//2- *-

PuMk.Sc^gg(

Sjdb* __ RESPONDENT(S)

S~h?{se, yb<iku*v\
ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. CouaJ' ef /jpp^G

Ciac.ulf__________ _

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

(Address)

C* ot/zA- kHz

/yin

lvcil

(City, State, Zip Code)

(Phone Number)

1

RECEIVED
FEB-8 2021
SffiSSg'rSISW-

Questions
Please keep in mind that I am a pro se attorney. I have no law firm to do research
and no clerical support. My background is in mathematical proof.
I have discovered a cancer in the USA that is wrecking the lives of Americans that
have earned a retirement. It needs to be eradicated. PSRS in Missouri is damaging
the lives of thousands of Missourians.
I am appealing the U.S. district court decision that said that since I was married to
someone that was on a government retirement system — Missouri Public Schools
Retirement System (PSRS) that a spouse’s retirement was not protected. I was
deprived of the retirement that was earned. I supported my wife for 47 years ■ her
entire adult fife, paying for her education and helping at her work.
The iudge ruled that no spouses of members of governmental retirement systems
are entitled to retirement rights. That would include the spouses of teachers,
military personnel, and government employees. This implies that nationally
millions of spouses are at risk of losing their retirement. That is a violation of
federal law (supreme law) — the Retirement Equity Act of 1984 (House vote 413-0).
This is now part of ERISA and is the product of Geraldine Ferraro and President
Reagan. The theft of a spouse’s retirement is a gross injustice at a national level.
PSRS has been sued thousands of times over this issue.
PSRS (Missouri's Public Schools Retirement System) tells their retirees that they
are allowed to give their retirement to someone other than the spouse. In a worstcase scenario, a homemaker wife could support her husband for 50 years (my wife
and I were married 47 years) and find out at the time of his death that he has given
the retirement away. When she contacts PSRS, they will refuse to tell her anything
because her retirement was given away to someone else. My wife did not turn in a
required beneficiary form (I was the automatic beneficiary) and PSRS gave my
retirement away. PSRS may be profiting from this policy of giving away
retirements. They don’t require any waivers to be signed. Neither me nor my wife
would sign beneficiary waiver forms and give up beneficiary rights. There is no
other way to give up spousal rights to earned retirement. I also argue that this
policy is robbing the spouse, destroying families, and probably generating suicides.
At the time of my wife’s death, PSRS immediately kept 50% of the retirement she
earned and then did not distribute all of the remainder. PSRS probably kept 75% of
the retirement. I believe by violating federal law PSRS made over an extra
$100,000.
One could also argue that the PSRS policy creates a new form of slavery and
discrimination in the United States.

The public was told by President Ronald Reagan in 1984 that defined benefit plans,
like PSRS, must protect the spouse and that each member of a marriage has
contributed to the retirement (REA 1984). Each spouse is a joint owner of the
retirement earned during their marriage.
The decision by the U.S. District court in K.C. implies that millions of spouses (of
teachers, military personnel, government employees) are at risk. Thousands of
spouses will lose their retirements in the future, many families will be destroyed
and many suicides will occur.
./

The Supreme Court should find in my favor since PSRS is violating a Federal Law The Retirement Equity act of 1984 and PSRS should be instructed to change their
policy and stop damaging the lives of widows and widowers that are married to
their members. All governmental retirement systems should do the same.
I have spent over 2 years (since March 2018) fighting for my retirement and the
rights of thousands of Americans that have encountered a retirement system like
PSRS. These people are old, invisible, and scattered across our nation. They spent
their lives trusting a retirement system that failed them and the US courts that
failed them. Now they have no retirement at an old age.

3

LIST OF PARTIES

[^] All parties appear in the caption of the ease on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:.

RELATED CASES

;

u

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
n/

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
Jijl*
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

U.S.

L i irt d-P S°:L4_p p #

i’Ttfj

'Jjd c-n W-Crds'

TABLE OF AUTHORITIES CITED
CASES

deceit

PAGE NUMBER
A-^c^tt j=^ 22-

1/
P5S-S

‘I'"

wtrv\,

STATUTES AND RULES

£7e/5* C~i~~hf-

OTHER

/W

^/*V/S'^

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
«
[ ] reported at ( ocii) ^
^ <3(d

&

to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

7

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
Cl o o
was
IX] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date:-----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was. granted
(date)
(date) on
to and including---------in Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix —------[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________ ______, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including-----Application No.----A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

C

h-e.

iv^S. by
Afcf

Gi on m eA^

Pp^ ci^dbeAs C£-

fn

si**0 4,0

J' -4 "e R.r

P<51 ^

IT Sc*rt ^

CW »J» 0°t-L)Mi'C-V'C'

<*

- jjRX-

STATEMENT OF THE CASE
The defendants are Public Schools Retirement System of Missouri (PSRS), and
Steve Yoakum. The events occurred in Missouri March-April 2018.1 have never
been contacted by PSRS.
For decades PSRS has violated federal law by not protecting the spouses of
their retirees. They allow their members to have beneficiaries other than
their spouses. For example, it is possible for a homemaker married to a PSRS
member for 50 years to find out at the time of her husband’s death that her
husband has given her retirement away. PSRS does not require that a waiver
be signed to do this. This is a violation of the Retirement Equity Act of 1984
which states that all retirement is jointly owned by the husband and wife and
a spouse must sign a waiver to give up their retirement. Many Missouri
citizens have lost all or part of retirement because of this and many families
in Missouri have been damaged by the PSRS ignoring the supreme law of the
land. Today thousands of spouses of PSRS members have their retirement at
risk. What PSRS is doing is a blight on the dignity of the state of Missouri.
PSRS is separately incorporated and it can sue and be sued. Especially when
the suit is filed by a citizen of Missouri. It should also be pointed out that
state funds and PSRS funds cannot be comingled.
My wife of 47 years died of cancer 1 month after she divorced me. She had no
will. Before we signed the settlement agreement, we both agreed to put each
other down as beneficiaries on our retirements, as required by federal law. I
had her as the beneficiary on all my assets. She was required by her
retirement system PSRS to turn in a beneficiary form within 30 days after
the divorce was settled. She died unexpectedly and did not turn the required
beneficiary form in. I had an agreement with her that I would be the
beneficiary on her PSRS retirement (even though that was not needed under
federal law) and of course she was the beneficiary on all my retirement. I
have written evidence of the agreement. No waiver was signed by either of us
to give up retirement money. PSRS sent my retirement money to her estate
and then it was distributed to the children. This has occurred thousands of
times in Missouri leaving a widow or widower, that had a nice retirement,
penniless. I am asking that this PSRS retirement money be paid to me. While
working on the marriage settlement, my wife told me that if she died first, I
would receive V-? of the monthly retirement payment she would be receiving. I
would receive about $900 per month. By Federal law, I am the automatic
beneficiary of all retirement money that we earned. In the case of my wife, I
spent a lot of time and money helping her acquire the credentials to be able to
earn a PSRS retirement and her jobs.
The Court should put an end to the gross injustices perpetuated by PSRS.
The policy at PSRS is to tell a spouse (that has a vested interest in a PSRS
retirement) nothing, if they are not fisted as the beneficiary. If the member

(Luufdfs

on

id

switches beneficiaries, the spouse is told nothing. The member’s spouse has
no rights at PSRS. Missouri citizens do not think that their retirements can
be stolen like this. But at PSRS it has been done thousands of times - a
violation of the supremacy of the federal law. REA 1984
Court of 1st instance
Court of 2nd instance

US District Court - Western District of Missouri
US Court of Appeals 8th Circuit

\

n

REASONS FOR GRANTING THE PETITION

VI o

k5
'P $ A 5 ^

A.£- yjo.

'-QiS^’P-td Co

^k*- Us--5*
r

&IX/Z.C .

L <itrr\

t

^ ^ fj ^

«&*

^%BA ^fV'

Sf"T
jj,

J~

v^UO^eJ

^jrl^u- lA l
J-

[U/ -fkl* 0M/l

h(*tnJrp^s

&

/OO0

/ /Yli

7 a *4 - ^ -^kt- pa

/z

i A<—.

Given that PSRS is violating Federal Law - the Retirement Equity Act of 1984 (an amendment to ERISA) which had as its primary purpose the protection of the spouse's rights to all retirement earned during a
marriage.
And given that a spouse must sign a waiver specifically giving up that beneficiary right or they retain the
beneficiary right.
And given that the public is relying on our government to protect our retirement rights and the public
believes they are joint holders of all retirement generated during a marriage REA 1984.
And given that PSRS of Missouri has destroyed the retirements of thousands of spouses married to their
members over many years and in doing so has damaged many families in Missouri, and possibly caused
suicides in doing so.
And given the fact that I have spent nearly 3 years of my retirement trying to get my retirement
returned to me.
And given the fact that protection of the spouse is basic common sense and considered by society as fair
play.
And given the fact that the U.S. Supreme court has now been made privy to the hundreds of thousands
of Americans that unknowingly have their retirements at risk because a federal law is being violated.
I contend that my retirement be given to me with interest and punitive damages as the court sees just.
Data concerning the retirement is being held by PSRS.
Also, all government retirement systems should be notified that they are to protect the rights of spouses
by following federal law. i he loss of retirement by military wives motivated the writing of REA 1984.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

L/

Date:

^

a c>ao

i3

